BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Supplemental Brief for Petitioner in 19-511,
Facebook, Inc. v. Noah Duguid, individually and on
behalf of himself and all others similarly situated, and
United States of America, were sent via Next Day
Service to the U.S. Supreme Court, and e-mail service
to the following parties listed below, this 7th day of
July, 2020:
Sergei Lemberg
Lemberg & Associates LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemb erglaw.com
Counsel for Respondent Noah Duguid
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. , N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBrief s@USDOJ.gov
Counsel for Respondent United States

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul D. Clement
Counsel of Record
Devin S. Anderson
Kasdin M. Mitchell
Lauren N. Beebe
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@k irkland.com
Andrew B. Clubok
Roman Martinez
Susan E. Engel
Samir Deger-Sen
Gregory B. in den Berken
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 7, 2020.

Donna J. Wol~
..
Becker Gallagher Legal Pu lishing. Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

d.J.d 9-; J-oJ-o

d~ J, jyw~

Notary Public
[seal]

"-..J

